                                                       
 
 
 
 
                 




                                                   
                 
 
 

         INTERIM REPORT ON THE FEDERAL 

           BUREAU OF INVESTIGATION’S 

        IMPLEMENTATION OF THE SENTINEL 

                    PROJECT

                                   
                                   
                  U.S. Department of Justice 

                Office of the Inspector General 



                          Report 12-38 

                        September 7, 2012





 
                              INTERIM REPORT ON 

                    THE FEDERAL BUREAU OF INVESTIGATION’S

                   IMPLEMENTATION OF THE SENTINEL PROJECT 



      This is the ninth in a series of reports by the Department of Justice
Office of the Inspector General (OIG) examining the Federal Bureau of
Investigation’s (FBI) progress toward developing and implementing
Sentinel-the FBI’s new information and investigative case management
system.1 This OIG report assesses a status report on Sentinel submitted by
the Department of Justice (Department) that was prepared in response to a
congressional directive.2 Specifically, the Consolidated and Further
Continuing Appropriations Act, 2012 directed the Attorney General to “report
to the Committees on Appropriations of the House of Representatives and
the Senate a cost and schedule estimate for the final operating capability of
the Federal Bureau of Investigation’s Sentinel program, including the costs
of Bureau employees engaged in development work, the costs of operating
and maintaining Sentinel for 2 years after achievement of the final operating
capability, and a detailed list of the functionalities included in the final
operating capability compared to the functionalities included in the previous
program baseline.”3 Our report provides an assessment of the Department’s
report on its Sentinel program. In the coming months, we also intend to
issue a final report on deployment operations, transition, and maintenance
of the Sentinel program.

      While the Department stated in its July 3, 2012, report that it planned
to complete Sentinel implementation at a total estimated cost of
$441 million, this does not include costs for 2 years of operations and
maintenance (O&M) after Sentinel is completed that was part of the original
cost of $451 million that was projected for Sentinel in 2008. In addition, we
found that the FBI continues to operate other IT systems that were to be
                                                       
             1
         The prior 8 reports have examined cost, schedule, and system performance since
the project’s initiation in 2006. Appendix II contains a list of prior OIG Sentinel reports.
             2
                 The FBI prepared the report submitted by the Department on July 3, 2012.
             3
          Under Public Law 112-55, the Conference Report directed the Attorney General to
report to the Committees within 120 days of enactment of the Act (enacted on
November 18, 2011) and to submit the report to the OIG at the same time for our review.
The Conference report also required the OIG to provide an assessment of the Department’s
report to the Committees on Appropriations within 60 days of receiving the Department’s
report. The Department provided its report – Congressional Report on the Federal Bureau
of Investigation’s Next Generation Information and Case Management Program,
July 3, 2012 – to the Committees and to the OIG on July 9, 2012. See Appendix I.

                                                          - 1 -

subsumed by Sentinel because the FBI decided to not include certain
functionality originally intended for Sentinel. As is to be expected with an IT
system of Sentinel’s complexity and extended development, the FBI added,
deleted and modified Sentinel’s requirements to adjust for changing business
needs and technology as well as to simplify the system and adhere to the
project’s budget.

      According to the FBI, it made Sentinel available to all users on
July 1, 2012. Since that time, data provided by the FBI indicates that FBI
employees routinely have been using Sentinel to perform their daily
electronic workflow and investigative activities. Additionally, the FBI has
continued to update Sentinel to fix problems that have been uncovered in
the normal use of the system since its deployment and to make
improvements in Sentinel’s functionality.

       In its July 2012 report, the Department stated that the FBI had
completed 15 of 17 key program event milestones. For the 15 tasks that
the FBI stated it had completed, we found that the information the FBI
provided adequately supported the status of 8 tasks and partially supported
the status of 4 tasks. However, the FBI did not provide us with adequate
and relevant evidence to verify the status of 3 tasks labeled “complete”. We
will continue to evaluate and in a future report provide further assessment of
the FBI’s completion of Sentinel.

       In our last report on Sentinel, issued in December 2011, we observed
that while the FBI appeared to be within its $451 million budget, the FBI’s
development budget no longer included 2 years of O&M activities after
development was scheduled to conclude. We expressed our concerns about
the FBI’s abilities to remain on schedule and within its budget, even when
including the use of Sentinel’s O&M funds for its development and
deployment, because of the cost uncertainties associated with procuring new
hardware and with the additional delay to Sentinel’s development and
deployment. We found that the performance deficiencies related to
insufficient hardware capacity (identified during an FBI-wide test exercise of
Sentinel in October 2011) caused the FBI to extend its already extended
schedule for completing Sentinel’s development from December 2011 to
February 2012. In addition, the FBI extended Sentinel’s deployment
schedule from January 2012 to May 2012.




                                     - 2 -

Sentinel Cost Estimate for Final Operating Capability

      The FBI reduced its development costs by using an Agile development
approach, significantly reducing the rate at which it expended funds on
Sentinel development. However, as we noted in previous reports, the FBI
did not include in its total Sentinel development the cost for 2 years of
Sentinel O&M once the FBI fully deployed Sentinel to all users. These costs,
as discussed below, account for approximately $60 million, which the
Department does not include in its July 2012 report to Congress when
stating its total Sentinel project costs of $441 million. The FBI’s initial cost
estimate in 2006 was $425 million.

Sentinel Development Costs

       The FBI began development of the Sentinel case management system
in March 2006 and estimated the entire project would be finished in
December 2009. In October 2007, the FBI increased the cost estimate for
Sentinel from $425 million to $451 million, based upon the results from
Phase 1 of the project. However, when the FBI accepted Phase 2 as
complete, the FBI estimated that it had spent approximately $405 million,
about 32 percent over budget at that phase of the project. In August 2010,
when the FBI adopted an Agile methodology to complete Sentinel, FBI
officials said the revised method would allow the FBI to complete Sentinel
development within the $451 million budget by re-using portions of FBI IT
projects (including Sentinel technology previously developed), taking
advantage of technological advances and industry best practices, and
increasing reliance on FBI personnel to develop Sentinel.

      In its July 2012 report to Congress, the Department stated that the
anticipated total cost to fully deploy Sentinel to its agents and analysts was
$441 million, $10 million below the available funding. The Department
noted in the congressional report that if during testing of Sentinel prior to
deployment it found that the Sentinel application required corrective actions,
the remaining $10 million may be used to correct these unanticipated
changes.

      In assessing the FBI’s cost estimate for the final operating capability of
the Sentinel program, we noted that the $441 million figure does not
account for O&M activities for 2 years after Sentinel is completed. The O&M
costs would cover support services that originally were to be provided by
Lockheed Martin as part of Sentinel’s original $451 million budget. Also, the
FBI’s Sentinel costs do not include the cost of FBI personnel assigned to the
Sentinel project. These costs are discussed below.


                                      - 3 -

Operations and Maintenance Costs

       In its July 2012 Sentinel congressional report, the Department stated
that it will require approximately $30 million annually to fund O&M on
Sentinel. The FBI’s Chief Technology Officer (CTO) stated that the cost of
operating Sentinel will include minor technical changes such as repairs to the
system when hardware or software problems arise. For example, the FBI
could make minor changes to either Sentinel’s code or user interface.

      Additionally, the FBI stated that it will make “perfective
enhancements” to the system with the $30 million budgeted annually for
Sentinel’s operations. Perfective enhancements are improvements to
system functionality developed after a system has been delivered and are
permitted so long as the enhancements do not exceed the scope of the
project’s System Requirements Specification (SRS) by requiring completely
new changes or additions to the system. The FBI’s CTO stated that the FBI
performs perfective enhancements on all of its major systems.

       According to the FBI, perfective enhancements, including fixing any
defects that are identified, could be deployed to Sentinel users on a
quarterly basis beginning in October 2012. That schedule has not yet been
finalized and it will depend on system and operational needs. However,
regardless of the frequency of deployments to users, the FBI will continue to
use an Agile methodology to conduct O&M and develop perfective
enhancements.

       The FBI stated that it will assign a combination of its own personnel
and contractors to perform O&M and make perfective enhancements.
However, it will not use any of the Sentinel O&M budget to fund the cost of
FBI personnel who are assigned full-time to O&M and perfective
enhancements functions. Instead, the O&M budget will be used to purchase
updated software and hardware and pay for contractor personnel who will
make up part of the Sentinel O&M team. Government personnel will lead
the performance of these functions, but contractors will provide the
overwhelming majority of the hours dedicated to executing these functions.
While the time spent by FBI personnel on O&M and perfective enhancements
will not be charged to the O&M budget, time billed by contractors will be
charged to the O&M budget.

      In examining the annual $30 million costs to perform critical
operations on the Sentinel system and underlying infrastructure, we found
that some of the fiscal year (FY) 2012 money budgeted for Sentinel’s O&M


                                     - 4 -

was spent on hardware critical to Sentinel’s initial full operating capability
deployment. Instead of deploying Agile-developed capability to perform all
critical case management functions completely within the Sentinel system at
the end of September 2011 as it had planned, on October 6, 2011, the FBI
conducted a testing exercise during which it determined that Sentinel’s then
current hardware infrastructure was inadequate.4 As a result, in
March 2012, the FBI installed the needed additional hardware, which cost
$6.2 million.5 According to the FBI CTO and the Sentinel Contracting Officer,
the FBI paid for the new hardware with the $30 million O&M budget added to
the FBI’s base budget, and the cost was not included in the $441 million
cited by the FBI as the total development cost of Sentinel.

      Finally, according to the FBI, the $441 million cited as the total cost of
Sentinel in the Department’s July 2012 report to Congress included funding
for Sentinel’s O&M through May 2012. However, as previously stated,
Sentinel’s original budget included O&M costs for 2 years after its
completion. Since the July 2012 congressional report notes that the FBI’s
base budget includes $30 million a year for Sentinel’s O&M once it is
deployed, the total cost for 2 years of O&M would amount to $60 million for
Sentinel after it is fully deployed.

FBI Employee Costs

      FBI employee costs are not included in the FBI’s $441 million Sentinel
development costs. The FBI stated that Congress provided the FBI its
$451 million Sentinel budget for non-personnel project costs related to
Sentinel.



                                                       
             4
          During the Agile development of Sentinel, the FBI revised its targeted dates for
deploying interim functionality and the final system to users. At the beginning of Agile
development in October 2010, the FBI planned to release new functionality to all users
through four releases on a quarterly basis, with the releases completed by October 2011.
That plan changed in the spring of 2011, when the FBI planned to release Sentinel
functionality to users through two releases, the first in September 2011 and a final
deployment in November 2011. The first deployment, called the System of Record Release
and planned for September 2011, was to provide all Sentinel users with the capability to
perform all critical case management functions completely within the Sentinel system. The
final deployment, planned for November 2011 and called the Full Operating Capability
Release, was to provide users with a fully-functional electronic case management system.
         
        5
          We requested cost data to verify how the FBI has spent the remaining
$23.8 million of the $30 million. The FBI stated that it is in the process of providing us this
information, but we did not receive enough information by the time of this interim report to
evaluate how the FBI spent the remaining $23.8 million.

                                                          - 5 -

       The FBI estimated that upon deployment, approximately $30 million
will have been spent on FBI employee costs for completing Sentinel. We
requested from the FBI information on the breakdown and calculation of
these costs. The FBI is in the process of providing this information.
However, we did not receive enough information by the time of this interim
report to evaluate the FBI’s estimated cost for employees to complete
Sentinel.

       The FBI defines the term “directly contributed” as those government
employees who are assigned on a permanent basis to the Sentinel project.
It does not include personnel on temporary duty.6 According to the FBI, the
$30 million expended to cover the costs of those government employees
assigned on a permanent basis to the Sentinel project were covered by the
FBI’s base funding and would have been expended on these employees even
if they were not working on the Sentinel project.

Automated Case Support System Operations Costs

       In implementing Sentinel, the FBI did not migrate all case data from
its previous case management system – Automated Case Support (ACS)
system – into Sentinel, as previously planned. According to the FBI, it has
migrated millions of case files from ACS. The FBI will continue to house
historical data within ACS for as-needed access or migration. In addition,
the FBI stated that it must continue to maintain ACS because ACS and the
National Name Check Program system share code.7 An FBI official stated
that the computer code of the National Name Check Program system is so
intertwined with ACS that terminating ACS would make the National Name
Check Program system incapable of functioning. The FBI stated that it
intends to award a contract for its replacement of the National Name Check
Program in fall of 2012, and it has not identified either a cost or schedule for
                                                       
             6 
          We are aware that some employees have been assigned to the Sentinel project on
a temporary duty, although the FBI has not provided us with the precise number. If the
costs of the FBI employees assigned to Sentinel on a temporary basis were included, that
number could possibly be higher.
 
        7
          In response to a request from a federal, state, or local agency, the National Name
Check Program queries FBI records to determine whether the person named in the request
has been the subject of an FBI investigation or mentioned in an FBI investigation. In our
December 2006 report on Sentinel, we identified the National Name Check Program system
as a cost that could be considered as associated with Sentinel but was a separate project
and therefore not included as part of Sentinel’s then projected $425 million cost. We noted
then that the implementation of Sentinel would require changes to the National Name Check
Program system. The data system used by the program relies on the ACS system, which
Sentinel is intended to replace. In December 2006, the FBI estimated cost of updating the
existing name check system to work with Sentinel was over $10 million.

                                                          - 6 -

the replacement. As a result, the FBI will continue to operate ACS and will
continue to incur costs associated with operating and maintaining ACS.8

Sentinel Schedule for Final Operating Capability

       As stated previously, the FBI initially estimated that it would deploy an
Agile-developed capability to perform all critical case management functions
completely within the Sentinel system at the end of September 2011 and a
fully functional electronic case management system in December 2011.
Following its October 2011 test of the Sentinel system, the FBI again revised
its estimate for completing Sentinel, planning to complete development in
February 2012 and estimated a May 2012 system deployment to all users.
In its July 2012 report, the Department stated that it initiated Sentinel
deployment on May 29, 2012. The FBI stated to us that it made Sentinel
available to all users on July 1, 2012. On July 31, 2012, the FBI announced
publicly that it successfully deployed Sentinel to all users on July 1, 2012.
Since that time, data provided by the FBI indicates that FBI employees
routinely have been using Sentinel to perform their daily electronic workflow
and investigative activities. Since deploying Sentinel to all users, the FBI
has continued to update Sentinel to fix problems that have been uncovered
in normal use of the system and to make improvements in Sentinel’s
functionality. We plan to further assess and report on Sentinel’s user
functionality in a future report.

Development Progress

      A Sentinel project official who briefed the OIG on the Department’s
July 2012 report to Congress told us that “Go-Live”, which the FBI defines as
Sentinel’s final operating capability available to users, was initiated on
May 29, 2012, when the system contained current operational information.
The FBI also stated that the “Go-Live” deployment activities continued
throughout June 2012 and that Sentinel’s final transition to O&M would occur
on August 9, 2012. This Sentinel project official said that the FBI had to
consider a number of instances where further enhancement or deployment
of the system had to be put on hold due to operational concerns where there
may be a heightened threat to national security.

      On July 1, 2012, FBI personnel were granted access to Sentinel for use
in investigative activities, and the FBI was no longer using ACS and its
paper-based records system for current case management. As previously

                                                       
             8
         On August 15, 2012, we requested from the FBI its annual ACS O&M costs. The
FBI is working to satisfy this request, but we have not yet received this information.

                                                          - 7 -

stated, the FBI publicly announced in a press release on July 31, 2012, that
Sentinel’s official deployment occurred on July 1, 2012.9

      The FBI’s Life Cycle Management Directive (LCMD) established policies
and guidance applicable to all FBI IT programs and projects, including
Sentinel. The LCMD contains 23 key support processes that help manage
the development of IT projects within the FBI. The LCMD and its key
support processes are designed to ensure that each project meets specific
requirements before it obtains management approvals necessary to proceed
to the next phase. However, in our December 2011 report on Sentinel, we
reported that while the LCMD discusses several development approaches, it
does not include criteria for the implementation of an Agile development
methodology. As a result, some of the processes implemented were vague
and ambiguous; for example, it was not clear which system documents
Sentinel project personnel must submit to FBI IT project governance
personnel and which reviews the project must pass to achieve compliance
with the FBI’s LCMD.

      In its schedule estimate in the Department’s July 2012 Sentinel
congressional report, the FBI identified 17 key program event milestones
and target dates leading to the deployment of Sentinel’s final operating
capabilities to all FBI Sentinel users.  Of the 17 tasks listed, the FBI report
labeled 15 tasks “complete”, 1 “in progress”, and the final task as “on
target.” To facilitate our assessment of the Sentinel schedule estimate in
the FBI’s report, for each of the 17 tasks listed we asked the FBI to provide
a description of the task, support for the target completion date, and
documentation or evidence to support the status listed in the FBI’s report.
The FBI submitted descriptions for all 17 tasks as well as supporting
documentation.

      For the 15 tasks that the FBI stated it had completed, we found that
the information provided adequately supported the status of 8 tasks and
partially supported the status of 4 tasks. However, the FBI did not submit
adequate and relevant evidence to verify the status of 3 tasks labeled
“complete”. In a future report, we will report on the status of Sentinel as it
was deployed.



                                                       
             9
         While the FBI’s press release stated that Sentinel was deployed on July 1, 2012,
the Department’s report to Congress stated that the system’s deployment was initiated on
May 29, 2012. While we recognize that aspects of Sentinel were in place prior to the July
date, FBI staff effectively were not using Sentinel as the FBI’s official case management
system until July 1, 2012.

                                                          - 8 -

      In addition, the FBI stated in its July 2012 report that it achieved its
Authority to Operate (ATO) milestone on May 25, 2012. Typically, an ATO
milestone is achieved when an official evaluates a system’s ability to meet
electronic recordkeeping criteria and then signs a document granting the
authority to operate the system as an official recordkeeping system. In
support of the ATO milestone that the FBI stated it achieved on
May 25, 2012, the FBI provided an ATO establishing that this milestone was
achieved on May 25, 2012. This ATO is valid for 180 days.

      We also found the FBI did not have a defined framework for measuring
an Agile project’s progress or how the status of key tasks should be
evaluated. We are concerned that the lack of such a framework may
adversely affect the quality of Sentinel or other FBI systems developed using
an Agile methodology.

      Based on the documentation provided to the OIG, we can determine
that some of Sentinel’s activities leading up to deployment occurred on
schedule, as listed in the FBI’s July 2012 report. However, we could not
determine that all activities occurred in a timely manner or if their
completion was based on comparison to rigorous criteria because the FBI did
not provide us sufficient documentation in support of these achievements.
Further, while the Department’s report was provided to Congress on
July 3, 2012, the FBI only provided documentation to support the completion
of the tasks by the date when the Department’s report was prepared.
Therefore, we were unable to verify the actual date the tasks were
completed.

Sentinel Functionality (Final Operating Capacity vs. Original Program
Baseline)

      In our October 2010 report on Sentinel, we noted that Sentinel’s
technical requirements were 6 years old, and there had been significant
advances in technology and changes to the FBI’s work processes.10 We
recommended that the FBI: (1) reassess the functionality described in
Sentinel’s requirements, including the requirement to migrate all case data
from the Automated Case Support (ACS) system into Sentinel, and update
the requirements as necessary; and (2) prioritize the remaining
requirements so that if the FBI cannot afford to meet all of them, it can

                                                       
             10
          U.S. Department of Justice Office of the Inspector General, Status of the Federal
Bureau of Investigation’s Implementation of the Sentinel Project, Report 10-22
(March 2010). In September 2011, the FBI stated it completed a review of the SRS
requirements in accordance with a recommendation in the Office of the Inspector General’s
October 2010 report on Sentinel.

                                                          - 9 -

focus on those requirements that have the greatest impact on its agents and
analysts. As is to be expected with an IT system of Sentinel’s complexity
and extended development, the FBI added, deleted and modified Sentinel’s
requirements to adjust for changing business needs and technology as well
as to simplify the system and adhere to the project’s budget. However, we
found that the FBI did not adjust its cost baseline when it transferred
requirements to other FBI information systems or when it removed
significant development efforts from the requirements such as the
requirements to build controlled interfaces with other FBI systems.

        The FBI defined “full operating capability” as the specific requirements
that Sentinel must meet as detailed in the Sentinel’s System Requirements
Specification (SRS). According to the FBI, the initial version of the SRS,
dated June 2005, contained 1,129 requirements. In the 7 years since the
initial SRS was approved, changes to the FBI’s business processes and IT
infrastructure and significant advances in technology led the FBI to reassess
and update Sentinel’s requirements and functionality. From February 2009
through December 2011, the FBI’s Executive Steering Committee (ESC),
which is comprised of the FBI’s Deputy Director, Associate Deputy Director,
and five Executive Assistant Directors approved additions, deletions, and
modifications to the original SRS requirements.11 Documentation provided
by the FBI showed that it added 90 SRS requirements, deleted 172 SRS
requirements, and modified 119 SRS requirements reducing the SRS
requirements to 1,047. According to the FBI, the rationale for the changes
to the SRS requirements fell into the following three categories:
(1) changes in approach to providing the needed functionality, (2) negative
business consequences, and (3) clarification or simplification of the
requirements. Some of the deleted requirements included functional areas
such as search capabilities (34 deletions), case management (20 deletions),
and task management (11 deletions). We believe that in a program of
Sentinel’s importance, complexity, and cost such an evolution is not
unusual.12


                                                       
             11
           The role of the ESC is to approve or disapprove any additions, deletions, and
modifications to the Sentinel SRS proposed by Sentinel program leadership. The ESC’s role
and responsibility is not exclusive to the Sentinel program. It also provides oversight for
other FBI IT programs.
         
        12
           For example, the Sentinel requirements included a specification on the size of a
web page, but Sentinel later divided screens into multiple web pages, eliminating the need
for a single web page requirement. In another example of a requirement change, the FBI
determined that a requirement in the original specification that provided for notifications
every time case information was changed would have led to users being flooded with
notifications and would have adversely affected the speed of Sentinel’s performance. 

                                                          - 10 -

       The Department reported in its July 2012 Congressional report that as
of February 10, 2012, the Sentinel program had completed over 97 percent
of the current 1,047 SRS requirements. In addition, the FBI reported that it
satisfied the functional intent of all 16 of Sentinel’s functional areas detailed
in the Sentinel SRS. Each of these functional areas includes a narrative
describing the business need underlying the functional area and the
numbered requirements related to the functional area. The following table
shows requirements added, deleted, and modified by functional area.




                                      - 11 -

   CHANGES TO SENTINEL’S REQUIREMENTS BY FUNCTIONAL AREA13

                     AS OF FEBRUARY 2012

                                          Requirements
    Functional                            in Functional
        Area                                  Area             Additions   Deletions   Modifications
  Architecture                                 68               3 (4%)      6 (9%)      10 (15%)
  Case
                                                      117      10 (9%)     20 (17%)       9 (8%)
  Management
  Collected Items
                                                          85    0 (0%)      5 (6%)        0 (0%)
  Management
  Crisis Case
                                                          15    0 (0%)     15 (100%)      0 (0%)
  Management
  Indexing                                                38    2 (5%)       2 (5%)      19 (50%)
  Interface                                               29   25 (86%)     3 (10%)       2 (7%)
  Records
                                                      103       0 (0%)      1 (1%)        0 (0%)
  Management
  Reports                                              36       0 (0%)      7 (19%)       0 (0%)
  Search                                              108       1 (1%)     34 (31%)      14 (13%)
  Security                                            194       3 (2%)     30 (15%)      20 (10%)
  Task
                                                          57    0 (0%)     11 (19%)       3 (5%)
  Management
  User Interface                                      199      28 (14%)     8 (4%)       23 (12%)
  Work Item
                                                      101       4 (4%)     22 (22%)      15 (15%)
  Authoring
  Work Flow                                          69        14 (20%)     8 (12%)       4 (6%)
  TOTAL                                           1,21914         90          172          119
 Source: FBI




                                                       
             13
          The table shows 14 functional areas, and does not include the functional areas:
Enterprise Portal and Project Management. It appears that the requirements for these two
areas were combined with the requirements for these 14 functional areas.
             14
           The total number in the column for Requirements in Functional Area reflects the
original 1,129 requirements plus the 90 additions, or 1,219 requirements. This 1,219 figure
minus the 172 deleted requirements equals 1,047 – the number of requirements in the
February 2012 version of the Sentinel specifications.

                                                               - 12 -

      As shown in the previous table, all of the Crisis Management functional
area requirements were deleted because the capability described in those
requirements is met by the Operational Response and Investigative Online
Network (ORION), a system which interfaces with Sentinel. In addition, the
Search functional area had a high percentage of its requirements deleted –
31 percent.15 The Case Management and Work Item Authoring functional
areas also had a significant percentage of deleted requirements, 17 percent
and 22 percent respectively.16 The Interface functional area had the largest
percentage of added requirements, 86 percent.17

      We reviewed documentation provided by the FBI that described the
deleted requirements and the justification for the deletion. The
documentation included the ESC meeting minutes, which recorded the ESC’s
approval of the changes to the SRS and the Request for Changes for
modifications of the SRS. The deleted requirements were approved by
Senior FBI Leadership and provided a justification for their removal.
However, for a majority of cases the documentation did not include an
assessment of the cost of adding, deleting or modifying the requirements.
We believe an assessment is vital for updating the budget baseline against
which Sentinel’s cost performance is measured and capturing cost savings
and increases associated with deleting and adding a requirement.18

      For example, as mentioned above, the FBI eliminated all 15 SRS
requirements in the Crisis Management functional area because the ORION
system, which was deployed in July 2008, would interface with Sentinel.
The FBI decided it was not necessary or cost effective for Sentinel to


                                                       
             15
           The search function is the capability to locate information contained in Sentinel.
This function includes multiple ways in which the results of searches can be examined,
formatted, saved, and passed on to other users.
             16
           The FBI uses cases to provide control oversight of investigative or administrative
activity and to associate relevant documents to cases. The Case Management functional
area includes the lifecycle of cases as well as how the information flows into a case through
the case management function and how a case is organized. The Work Item Authoring
functional area relates to authoring, which is the capability to create, read, update and
delete any and all parts of a work item.
             17
          The user Interface functional area includes the requirements related to the
graphical user interface that Sentinel users experience.
 
       18
          In our August 2007 report on Sentinel, following the completion of Phase 1 of
Sentinel, we recommended that the FBI negotiate decreases in the cost of future phases if
requirements are deferred in that phase. The FBI agreed and formed a Requirements
Working Group to address our recommendation. 

                                                          - 13 -

replicate ORION’s functionality.19 However, in May 2012, the FBI awarded a
$19 million contract to operate and maintain ORION for 8 years. The FBI’s
CTO told us that future versions of Sentinel may replace ORION. We are
concerned that costs originally intended to be borne by Sentinel were
transferred to ORION and that future Sentinel funding will be used to replace
ORION.

      Forty-four of the 172 deleted requirements were transferred to the
other FBI IT systems, including:

             ORION: Fifteen requirements related to crisis management were
             deleted because they duplicated functions provided by ORION.

             Data Integration and Visualization System (DIVS): Ten requirements
             related to Sentinel’s search capabilities were deleted because they
             overlapped with DIVS. Deployed in 2011, DIVS is a search tool
             capable of searching the FBI’s most-used databases.

             Case Document Access Review: Five requirements related to the
             capability of Special Agents to monitor who views the documents
             within their cases were deleted because Sentinel did not subsume the
             Case Document Access Review.20

             Delta: Six requirements were deleted because Delta subsumed two
             legacy human intelligence systems that were originally to be
             subsumed by Sentinel. Delta is a confidential human source
             management system that provides FBI agents and intelligence
             analysts a uniform means of handling the administrative aspect of
             maintaining human sources.

      In addition, the FBI’s Guardian system allows for the intake, tracking,
searching and analysis of terrorist threat incident or suspicious activity
reports. The utility of this database is that it is easily searchable and allows
for pattern analysis. The initial Sentinel SRS stated, “Guardian system was
                                                       
             19
           ORION provides cases management and related information processing
capabilities to support federal, state, local, and tribal law enforcement agencies in a
coordinated response to crises at special events or critical incidents – anything from political
party conventions to the Super Bowl to terrorist attacks.
             20
          We requested from the FBI information on whether Sentinel has the functionality
that allows Special Agents to have knowledge of all persons who access case documents,
but the FBI has not provided us a response to this inquiry. Without this functionality
Sentinel does not have a basic control to detect and mitigate the insider threat from persons
who access files without a need to know.

                                                          - 14 -

developed as an intermediate solution until full Sentinel functionality is
available.” However, Sentinel did not subsume Guardian as planned.
Therefore, the FBI has to maintain and operate two systems to track and
record investigative activity and information when assessing threats and
performing investigations.

       In addition to the deleted requirements that transferred requirements
to other IT systems, the FBI also significantly modified Sentinel’s
requirements to interface with other IT systems. Specifically, the SRS
originally required Sentinel to build controlled interfaces for systems that
need to share information between different security domains. However, in
2009, the FBI determined that this functionality was an FBI enterprise
responsibility and that Sentinel would not build controlled interfaces. This
decision eliminated 17 requirements and modified 9 other requirements.21
Also, Sentinel’s requirements originally listed 35 systems with which Sentinel
would interface. However, the FBI decided that “rather than specifying a
definitive list of interface[s] the system will communicate with, a decision
was made to rewrite these requirements to a list of services that Sentinel
will provide. Other systems may then avail themselves of these services.”22

Conclusion

       In its July 3, 2012, report to Congress on its Sentinel system, the
Department stated that it planned to complete Sentinel implementation on
August 9, 2012, at a total estimated cost of $441 million. While this amount
is less than the $451 million most recently budgeted for Sentinel, we note
that the $441 million does not include costs that were included within the
original scope of the project, particularly O&M costs for 2 years after
Sentinel was implemented. On July 31, 2012, the FBI announced publicly
that it had deployed Sentinel to all FBI employees on July 1, 2012. Data
provided by the FBI indicates that FBI employees routinely have been using
Sentinel to perform their daily electronic workflow and investigative
activities.

             In assessing the FBI’s discussion of Sentinel’s functionalities, we found
that several of the system’s requirements have been modified or deleted and
that additional requirements were added over the course of Sentinel’s
                                                       
      21
          We requested data from the FBI on the cost impact on Sentinel of eliminating the
17 requirements and implementing them at the FBI enterprise level, but the FBI did not
provide the cost information because the FBI stated that it does not record costs at the
requirement level.
      22
        Sentinel Request for Change, number 2015, approved by the Executive Steering
Committee on May 24, 2011.

                                          - 15 -

development. Additionally, some requirements were transferred to other
FBI systems. We plan to conduct a more detailed assessment and report on
Sentinel’s user functionality in a future report.




                                  - 16 -

                                                                      APPENDIX I 



       THE DEPARTMENT OF JUSTICE’S

      JULY 2012 REPORT TO CONGRESS 





                 Congressional Report on
           The Federal Bureau of Investigation's
             Next Generation Information and
               Case Management Program


                                Submitted to:

Comm ittees on Appropriations of the United States House of Representatives and
                           the United States SenQte



                                Prepared by:
                       Federal Bureau of Investigation
                           Department of Justice


                                  July 2012




                                 - 17 -

                                   T able of Contents



L      Overview of Reporting Requirement

11.    Background of the Sentinel Program

III.   Schedule Estimate

IV.    Cost Estimate

V.     Cost of DirecLContributions to Developm ent Work by FB I Employees Development

VI.    Post Final Operat ing Capability Costs

VII.   Functionali ties (Final Operati ng Capacity vs. Ori ginal Program Baseline)

VUI.   Concl usion




                                       - 18 -

   I.        Overview of Reporting Requircm ent
This Federal Bureau of Investigation (FB I) report responds to the Congressional reporting
requirement re lated to the Fiscal Year (FY) 2012 Appropriation as required by the Joint
Explanatory Statement P.L. 11 2-284, Consolidated and Further Continu ing Appropriations Act
of2012:
          'ISentinel - Within 120 days of enactment of this Act the Attorney General shall report to
          the Committees on Appropriations of the House of Representative s and the Senate a cost
          and schedule estimate for the final operating capab ility of the Federal Bureau of
           Investigation ' s Sentinel program, including the costs of Bureau employees engaged in
          development work, the costs of operating and maintaining Sentinel ror 2 years after
          achievement of the final operating capabi lity, and a detailed list of the funcrionalities
          included in the final operating capabi lity compared to functionalities included in the
          previous program baseline."


    II.      Background of ihe Sentincl Program
Sentinel, the FBI's next generation information and case management program, has been in
development since March 2006. When fully operational, Sentinel will replace the FBI's aging
and outdated Automated Case Support CACS) System. It will also transform the way the FB I
conducts business by moving it from a primarily paper-based case management system to an
electronic workflow-based management system of records. This will help the FB I manage
infomlation beyond the case focus of the existing ACS system and provide enhanced information
sharing, search, and analys is capabili ties. Furthermore, Sentinel will facilitate infonnation
sharing with law enforcement and Ll1telligence Community members, including the Department
of Justice (DOJ) and the Department of Homeland Security.
On March 16,2006, Lockheed Martin (LM) was awarded the Sentinel contract. LM planned to
develop and deploy Sentinel in four phases - with each phase introducing new capabilities. On
June 19,2007, the FBI announced the success ful enterprise-w ide deployment of the first phase of
Sentinel. Phase 1 provided a user-friendly, web-based interface to access infonnation currently
in the FBI's ACS system with infonnat ion pushed to users and available through hyperlinks. It
featured a personal workbox that summarized a user' s cases and leads, put more infonnation at
the user' s fingertips. and moved employees from dependence on paper-based files. Additiona ll y,
il provided user-friendly search capabilities, which was an improvement over the cumbersome
mainframe system . Phase I also made available a squad workbox that enabled supervisors to
bener manage their resources and workflow, and made it easier to assign leads. After the Phase
1 deployment, LM released 14 system builds that impro ved efficiency and e nhanced the user' s
Sentinel experience. Many of these enhancements were a direct result of addressing user
feedback recei ved via the Sen tinel website, focus groups, office visits, and other outreach efforts.
Based on lessons learned during Phase I, FBI leadership decided to change the developmental
approach from a waterfa ll (strict phases) to an incremental development methodo logy that
divides the four phases into segments. Thi s results in a more rapid delivery of capabi liti es, rather
than deploy ing all capabi lities at the end ofa phase.
In April 2008, all four segments of Phase 2. Segment I were delivered ahead of schedule and
within budget. Two of the segments in Phase 2 delivered the Sentinel Enterprise Portal and a




                                              - 19 -

number of admini strat ive, infrastructure, and sec uri ry enhancements. Addi tionally. Phase 2,
Segment 2 successfull y deployed critical hardware that increased the system 's performance on
Jul y 16, 2008.
The Sentinel' s new user interface was launched in September 2009. The streamlined design
provided the foundation to support future functionality , including el ectron ic workflow and web­
based case management. Enhancements included a navigation panel that offered quick access to
online help, searches, and internal links; easier access to user workloads; the ability to open and
view mUltiple cases and serials within one screen; and a more cohesive superv isory workbox.
On December 2, 2009, the FB I conditionall y accepted deli very of Sentinel' s Phase 2, Segment 4,
from LM, which included three of the eight electroni c fonns and the ir associated workflows.
Because thi s segment was delivered with serio us perfonnance and usability issues, and received
negative user feedback during testing with FBI spec ial agents and intelli gence analysts, Segment
4 was not deployed to FBI employees in December 2009.
On March 3, 20 I O. the FBI directed a partial stop work of Phase 3 and all Phase 4 activities to
focus on the depl oyment of Phase 2. Segment 4. The focus transitioned from operations and
maintenance activities back to the development phase. Three pilots were held in May and June
20 10 with the FBI 's Critical inc ident Response Group (C IRG). and at the Richmo nd and Tampa
Field Offices. The goal of the pi lo ts was to test Sentinel 's new form s and workflow capabilities
that were part of Phase 2, Segment 4.d
On July 12, 2010, the FBI extended the March 3, 20 10, partial stop work order to includ e the
remainder of Phase 3. On Jul y 26, 2010, the FB I's Infonnalion and Technology Branch (ITB)
deployed Phase 2, Segment 4, which provided new and enhanced capabi lities. These capabilities
included the creati on of case documents on line; the efficient flow of those documents
electronicall y through submission, collaboration, vetting, and approval; the capability to search
across all case-re lated infonnation; and an easy-to-use interface. In all , Segment 4 included two
new fonn s (i.e., FO- 1036 Import Fonn and FO- l 038 Lead Request) and two modified fOnTI S
(i.e., FD- 1057 Electroni c Communicati on and FO-302 100erview Fonn).
In September 20 I 0, the FBI announced changes for bringing Sentinel to full operational
capabi lity. Thi s new direction was based on a comprehensive assessment by subject matter
experts of Sentinel 's past performance, current state, and future req uirements. As a result, it was
decided that the future Sentinel development effo rts would use an Agile approach and would be
managed directly by the FBI ' s Infonnation Technology Engineering Division (ITED) versus
LM .
The Agile approach to so ftware development focu ses on the frequent del ivery of capabilities
through the close co llaboration of users, stakeholders, developers, and testers. The Agile
development approach seeks to deli ver value to users quickl y. For the FBI , system requirements
are addressed through functiona lities that are developed in two -week increments called
"Sprints. " Al the conclusion of each Sprint a new development is demonstrated and tested.
On October 18, 20 I 0, the ITED kicked off the new deve lopment approach to com plete Sentinel:
Agi le development wi th Scrum methodology. This approach involves wo rki ng quickly in small
teams to deli ver regular updates to the system. -nle Agile model ensures that the latest
technologies and best practices are integrated into Sentinel ' s developm ent process to address
remaining requirements in an effective, prioritized manner. Operations and maintenance of the




                                             - 20 -

    system' s current capabilities were transiti oned 10 the FB I's Infonnation Tec hnology Services
    Di vision. LM con tinues to support the FBI as a Sentinel subj ect matter expert as well as
    supporting Sentinel operations and maintenance.
    To ensure the Sen tinel app li cation would meet the users' needs, the Sentinel management team
    established a Sentinel Advisory Group (SAG) to preview Sentine l capab il ities during the process
    and pro vide feedbac k on new funct ionality. The SAG consisted of FBI emp loyees with a varie ty
    or skill sets and case management experience. Add itionally, a variety or beta sessions,
    demonstrations. and hands-on orientations were conducted from May- July 20 11. More than
    550 users participated in beta testing or rece ived a demonstration of Senti nel. These incl ude:

        •   March 30-3 1 -- The SAG I (In-person beta) ( 18 employees).
        •   June 15-1 7 - The SAG 2 (Remote beta) (2 1 employees) .
        •   June 15-17 - The Sentinel Coordinators and Sentinel Traini ng Advisors (Remote beta)
            ( 125 employees).
        •   June 22 -24 - Washington Field Office employees (in-person beta testing) ( 158
            emp loyees).
        •   July 5-8 - Chicago and Memphis Field O ffi ce e mployees (Remote beta testing) ( 152 and
            50 e mployees respectively).
        •   July 12-13 - The Communications Train ing Team (CIT) demonstrated new Sentinel
            functionali ty to Sentinel Support Unit' Help Desk employees at the Cri mi nal Justice
            Informati on Servi ce Division located in West Virgi nia (4 employees).
        •   July 28 - The CTT provided a hands-on demonstration of Sentine l to the Records
            Management Division He lp Desk employees to fami liari ze them with the new features
            within Sentine l (25 employees).
        •   Bi-weekly development team demonstrations of the latest Agile Sentinel build to FBI
            executives, managers, and external oversight entities (an average of 18 employees over
            21 demonstrations).
    Additionally, pri or 10 the October 6, 20 I I, Sentinel Fun ctional Exerc ise (SF E), the Sentinel team
    briefed a variety o f audiences. with some attendees rece iving hands-on experi ence with the
    Sentinel application. Events incl uded :

            September 1 - Beta sess ion for 19 Di rectorate o f Intell igence and Counterterrori sm
            Division employees at FB I Headquarters.
            Septemb er 6 - A lengthy demonstration to members of CIRG during scenario
            discussions fo r the SFE.
        •   Septemb er IS - Two beta sessions with users from Criminal In vestigati ve Div ision,
            International Operations Division, Co unterinte ll igence Division, and the Weapons of
            Mass Destruction Directorate (approx im ately 19 employees for eac h session).
            Sep temb er 19 - A Sent inel demonstration to more than 55 attendees duri ng the Legat
            Conference.
            Septemb er 26 - A beta session for more than 25 employees from the Director' s
            Advisory Groups (Special Agents Advisory Committee, Mid-leve l Manageme nt
            Ad visory Committee and AEG IS).




                                                                                                               
 


                                                  - 21 -

               Septemb er 27-28 - Live Meeting training for Sentinel Coordinators/Sentinel Training
               Advisors in preparation for the upcoming SFE.

    On October 6, 20 I I, the ITB conducted a nationwide SFE with more than 700 employees. This
    exercise proved inva luab le because it allowed the field to have hands-on experience wit h the
    application and its availab le func tional ity. It also he lped leadership to determ ine that although
    the app lication funclionality and design were well·reccived, some of the hardware (e.g., database
    servers) used to support Sentinel needed to be replaced because they were origina lly purc hased
    in 2007 and had become outdated. The new hardware is in li ne wi th the original archi tecture
    all owing SeOlinel to take advantage of the improved performance from the cuncnt generation
    eq uipment. The Senti nel development team conti nued to refine and develop additional
    functionali ty through two week development periods (also known as Spri nts), with Sprint 27
    completed in December 20 11 . In January 20 12, the ITE D ordered the new hardware to
    accommodate the Sentinel app lication.


        Ill.      Schedule Estim ate
    The fo llowing table. as of June 1, 2012, prov ides the key program event milestones and target
    dales remaining between the date of this report and the deployment of Sentinel's final operating
    capabili ties to all FBI Sentinel users. The date when Senti nel's fi nal operating capabili ty will be
    made available 10 all FB I end- users is referred to as the "Go-Live" date. Go-Live was initiated
    in May 20 12 and deployment acti viti es wi ll continue throughout June 20 12.
                          lask
                                                  I   'arl!et CompletIOn Date             Status

     Adyisory G roup Assessments of Sentinel                  1111112                    Complete
     Soft ware Functionality

     Receipt of FV 20 12 Tec hn ica l Refresh                 2/6/12                     Complete
     Hardware

     Assess ment of Sentin el Softwa re                       2110112                    Complete
     Function ality ill Complirisonto Sentinel
     Req uirements Specifi cation (S RS)

     Assessment of Readiness for I.he Se ntinel              2/ 14/ 12                   Complete
     Adyocacy Orientatio n

     Integra tion of Ihe Software a nd the                    312112                     Complete
     Technical Refres h l-tardware

     Sentin el Adyocacy Orienta tion                          ) /9112                    Complete

     Performll nce TUlling ofTechnicli1                      3/ 16112                    Comp lete
     Refresh Hardware

     Demonstra tions for FRI end-use rs                       3120112                    Complete

     Insla llation of Tec hn ica l Refresh                  3/22120 12                   Complete
     Ha rdwa re




                                                                                                               
 


                                                      - 22 -

                         Tasl.                       larget CompletIOn Date              Status
                                                 I                            I
     Tellt Keadine,SS of Sentinel Final                     3/29/ 12                   Complete
     Operating Capab ility Hardwa re

     Second Sentin el Functional Exercise                   4/25112                    Complete

     System Readiness Checklist Complete -                  4/25/ 12                   Complete
     Authority to Deploy

     Organizational Readiness Verification                   5/9112                    In Progress

     Final Assl'ssnu:nts for CertifiCl:ltion ,              5/25/ 12                   Complete·
     Accreditation . Recordkeeping and
     Privacy Impact

     Obtnin "Authority to Opcrare"                          5/2 5/ 12                  Complete

     Initiate Deployment of FiOlti Operating                5129/ 12"                  Complete
     Capability 10 a ll FBI End Users - " Go
     Live"

     Post Deployment Operations and                          8/9/ 12                   On target
     Transition

    *Note PI A tS stIli under review

        IV.      Cost Estimate
    The FBI has compli ed with the language included in the House report regardi ng the expectati on
    that the FBI will continue all necessary peri odic oversight rev iews in accordance with
    recommendations from the Inspector General. The FBI has a lso adhered to the language in the
    Senate report regard ing the prohibition of exceeding $45 1 million on development without first
    provid ing notificati on to the Committees on Appropriations and developing a work breakdown
    (schedul e),
    Deployment of the software, perfonnance testing, and optimi zation occurred using the
    foundati on provided by the hard ware technology refresh. Thi s effort began upon receipt of the
    hardware on February 6, 20 12, and was completed by March 23, 201 2. In parallel , the Sentinel
    team is foc used on organizationa l change management activities, which address a wide range of
    FBI user groups with the objecti ve of preparing end users and support the organiu lion during
    rhe transition to the Selllinei system . The system Go-Li ve transiti on was initi ated in May 20 12,
    and may continue throu gh summer 201 2, as case infonnation is migrated from the legacy ACS
    system into the Sentinel sys tem upon user request.
    The current anticipated tota l cost of Sen line I through the Go-Live transiti on is $44 1 mill ion,
    which is $ I 0 million below the available fu ndi ng. Should testin g prove that the deployment of
    the Sentinel appli cation onto the refreshed infrastructure requires mitigat ion due to an as-yet­
    unknown operational riSK. the remainin g $ 10 million may be required to impl ement correcti ve
    acti ve opti ons.




                                                                                                             
 


                                                     - 23 -

 




        v.     Cost of Direet Contributions to Development Work by FBI Employees
               Development
    At the outset of the program in 2005/2006, an estimated cost rate was established based on the
    average salary of OS 13-15 employees, and doubled as a rough measure of estimating the total
    cost of FBI employees who "directly contributed" to the development and deployment of
    Sentinel. The initial average rate has been updated by applying a yearly cost ofliving escalation.
    The cost of the direct contribution from FBI employees has been included as a distinct part of the
    program's Office of Management and Budget (OMB) 300 submissions - separate from the
    $451 million total contracted budget - since the inception of the program. Based on the most
    recent OMB 300 submission, the FBI estimates that upon Go-Live deployment, approximately
    $30 million will have been spent on such FBI employee costs for completing Sentinel.


       VI.     Post Final Operating Capability Costs
    The legacy Sentinel system has been in use since the spring of2007, and currently services
    approximately 11,000 users per month. The cost of operations and maintenance support since
    April 2007 (through May 2012) is funded from the $451 million total contracted program
    budget.
    After Sentinel's final operating capabilities are deployed, the FBI will require approximately
    $30 million per year to perfonn critical steady state operations on the Sentinel system and
    underlying infrastructure to ensure its successful continued operation. This funding is currently
    in FBI ' s base.


        VU. Functionalities (Final Operating Capability vs. Original Program Baseline)
    Development of the Sentinel system with final operating capability was initiated in 2006 and was
    preceded by a business process reengineering activity that provided input to the development of
    the Sentinel Requiremems Specification (SRS). The initial SRS listed 1,122 requirements and
    was reduced to 1,047 requirements. Throughout the duration of the program, requirements
    engineers from this initial effort have been a consistent part of the program's staff. Additionally,
    an Executive Steering Counci l (ESC) was fanned, which consisted of the FBI's Deputy Director,
    Associate Deputy Director, and five Executive Assistant Directors. This ESC was responsible
    for all moditications to the SRS. Any changes to numbered SRS requirements had to be
    approved by the ESC. The staff consistency, in addition to the ESC process whereby change was
    authorized at an executive level, enabled the program to maintain direct traceabi lity to the initial
    functional intent.
    As expected, changes have been made to a number of individual SRS requirements to adapt to
    operational needs of the organization. The FBI has updated the requirements as necessary.
    These efforts took into consideration the fact that the organization' s business practices and
    technology have continued to evolve during the six years that have passed since the SRS was
    initially generated in 2005.




                                                 - 24 -

    T he adj usullems have largely fa llen inlo three broad categories:
           I. Changes in approach, to make use of technology im provements and to align with the
              current strategic info nn ation management goals of the FB I. This approach better
              re inforces the service-o ri ented approach intended fo r Sentinel and th e FB I as a whole.
           2. Elimination of req uirements to avo id potent ial unintended negati ve business conseq uence
              if they were implemented as written.
           3. Clarification or simpli fi cation of req uirements [hat were of marginal benefit to users and
              would result in unnecessary spending.
    As of February 10, 20 12, the program has achieved the fu ncri ona l inlenl of over 97 percent of the
    numbered offi cial 1.047 SRS requirements, based on a comprehensive assessment of Sentinel
    final operating capabili t'Y software functionality in comparison to the SRS. As a result, the
    Sentinel program has satisfi ed all of the ori ginall y-intend ed maj or fun ctionaliti es to be a full y
    autol11a1ed, web-based case management system designed to suppo rt both o ur law enforcem ent
    and intel ligen ce mi ss io ns.
    The breakdown of the point-by-point accounting of each of the current 1,047 SRS would be 100
    long for this report . I The following table provides a summary or eac h of Sentinel 's 16 functiona l
    areas. These sections are summarized from the current SRS ~ and the text in q uotes is taken
    directly fro m the current SRS. All the fu nctionality described below has been achieved, with
    some explanations provided fo r areas where implementation was different fro l11 what was
    o ri ginall y envisioned. Additional info mlati on that was provided lO vendors fo r cl arity has been
    marked with "N/A" in place of a checkbox because it is not something that the Sentinel system
    will perform .


    Fu nctional Area #1 - Work Item Auth o ring
    Onr a U Status Summ ary: Implementa tion Co mplete ~
        Sentinel FunctlOnaht)
                                                                                                                I   Complete?

        "T his sect ion desc r ibes the a uth oring too l a nd t he a uthoring of each Wor k Item. Authorin g          I8l
        is t he capa bili ty to c rClIte, read, update, an d de lete a ny and all parts of 11 Work Item
        th roughout the unique li fecycle of a Wor k Item. The a uthoring tool will support all Wo r k
        It em a ut horin g except for noti fica tions which lire syste m generated."

        " A Work Item is 11 contain er of infor mation. The container ma kes it possible 10 organ ize,                 I8l
        present, an d manage the in formation rela ted 10 an (" 'ent, pCNion, or topic. T he way data is
        organ ized and presented in th e container provides meani ng a nd contel:( to the infor ma tion.
        A Wo rk Item could ha ve a ttach ment such as a form , letter, sprea dsheet, memora ndu m,
        photog raph, video cl ip, or repor t."

        " Wo r k Items a rc rout ed by Workfl ow a nd ap pear In the Wo r kboxes of Sentinel Users                     I8l
        (Sect ion 3.2. 10 provides u deta iled desc ri ption of Wor kboxes.)."

        " Wo rk Items me mori alize t he wor k that has been accompl ished, is in process, or will be                  N/A
        accomplished on specific Cases."

        " Documents· These a re used to open Cases, r-ecord Case decisions (invest igations a nd other                 I8l

    I   The current version is 5.2 dated December 201 1.




                                                                                                                                 
 


                                                             - 25 -

    Senunel functlOnahh
    acti\'ities), and close Cases. Most Documents are a nalogous to paper documents in use prior
                                                                                                       I   Complete?


    to Sentinel. All apprO\'ed Documents will be Serialized ond placed in the Offici:11 e lise file.
    Capturing these documcnts electronically helps orgilnize the information for case of access,
    use, and managemcnt control. "

    "Oocument-re lated Work Items - I\1ost of these provide important supporting infOrllllltion               181
    to specific Documents. The Package is on exception , as it is only a transitory vehicle for
    Worknow routing to facilitate Document appro\'III. These Work Items are not to be
    serialized."

    " Management-related Work Items - These support FUI management and communications                         181
    and are not serialized."



    Functional Area #2 • Workflow

    OHrali Status Summar): Implementation Complete                        _Scntlnel funetlOn.llilt)        Complete?

    "The system will provid e robust, integrated tools for Authors, Co-Authors, Reviewers, and                181
    Appro\'ers 10 create, read, update, and delete Documents and other Work Items."

    "The authoring lools will facilitate the creation of high qualily Work Items wilh such                    181
    features as spell check, grammar check, automatic fonnalling , style sheets, ve rsioning, and
    rich text formatting found ill commercially-available word processing packages."

    "The authoring tools need to support entering of data in fordgn languages especially in                   181
    ficlds that require forcien names."

    "The authoring tools will also facilitate data entry by providing defaulted data, validation              181
    checking, and informlltive reed back to correct data entry errors."

    "Once Documents have bcen approved and serialiZed . they must be saved in an immutable                    181
    rorm, such as PDF."

    "In addition, however, there is a need to use a serial us a starting point (sometimes referred            181
    to liS a "pony") for another similar Document."

    "The usc of a pony will reduce the need for a user to reenter information when two                        181
    Documents are similar."

    "The design must be able to support both of t.bese uses ror II serialized Document."                      181
    "' It is conceivable and acceptable for the design to store two versions of the Document : one            181
    flattened immutable version, such as PDf, for Records Management purposes ; and another
    context-sensitive version, such as XM L., for Work Itelll Authoring purposes."




                                                                                                                        
 


                                                      - 26 -

 




    Functional Area #3 - Package Management

    Overall Status Summary': Implementation Complete                        _Sentmel functionality
                                                                                                           I   Complete'!

    "Sentinel Users can either be Resident to a Case, a Sub-case, II Package, a Lead , or any                     [8]
    combination."

    " Sentinel Use rs wi ll typically author Work Item s not Resident to a Case or Su b-case when                 [8]
    they anticipate tha t a new Case must be opened ,"

    " I( th e
            Sentinel User is Resident 10 a Case, Sub-case, Package, or Lea d, the system will enter               [8]
    defa ult va lues for sume Case metadata."

    " If t he Sentinel User is not Resident to a Case, Sub-case, Packa ge, or Lead. the Sentinel User             [8]
    lIIay en ter the same Case-related information or it will be pro\'ided with the Filing
    I nslructions."

    "T he Senti nel User may change any of this data."                                                             [8]

    " Senti nel Users may add Attachments to Work Items."                                                          [8]
    "Attachments may be ex isting electronic files generated outside of Sen line I (i.e., POf files,               [8]
    digital pictures, word processing files, spreadsheets, etc.), or they may be new digital files
    capt ured " 'ilh the Digita l File Importing Tool (Additional details are provided in Sectio n
    3.2.10.4.10, Digital File Importing Tool.)."

    "Sentinel Users may also reference external physica l objects."                                                [8]
    "The system will support the Sentinel User by generating unique identifiers for labeling Dnd                   [8]
    refe rencing these externa l objects."

    "Upon Serializatio n, Work Ite ms authored Res ident to a Case or Sub-case will appear in                      [8]
    thai Case or Sub-case!'

    " Oocument-related Work Items not subject to Se ria lization (Accomplish ments &                               [8]
    Techniques, Collected h e m Reco rds, Leads, and Lead Res ponses) will appear in the Cases
    and Sub-cases of their related Documents. Ma nagement-related Work Items will appear in
    the Dashboard and Workbox of each Sentinel User."



    Functional Area #4 - Case Management

    Overall Status S umm ary: Implementation Co mplete ~

    Sentmel functlOnltlil,.                                                                                I   Complete?

    "The FB I uses Cases to provide control o\'el"Sight of invest igative or administrative acth'ity,             N/A
    as well as to associate rclevant Documents to Cases. This section discusses the lifecyclc of a
    Case, how information flows into the Case through the Case Manageme nt function , and how
    a C ase is organized."

    "A Case is a n abstraction tha t holds references to all oflh e data and Work Items ( Business                N/ A
    Constructs) related to th a t Case. Ex hibit 3.2.4- 1 lists items that are typically associated with
    a Case,"




                                                                                                                             
 

                                                        - 27 -

    Functional Area #S - Collected Item Management
    Overall Status Summa ry: Impleme,ntation Complete ~
     Sentinel functionality                                                                             I   Complete'!

     " In Collected Item Management. Sentinel will support documentation of the collection.
     storage, a nd tracking of physical items, identified as Collected Items (C is), related (0
     investigative and administrative ca ses!'

     "Ex hi bit 3,2.5- 1 illu strates the process by which C is are elltered into Collected Ite m
     Ma nagement. As shown in the illustration, tltere are two parallel activities rela ted to the
     Cis. The prim a ry activity is tlt e creation of a Co llected Item H.ecord (C IH.)."

     " The C IR is a set of data contained within Sent inel t hat documents a particu la r C I and
     mainta in s a history of its acquisition, storage. handling, a nd disposal."

     "The creation and maintena nce of t he C IR takes place in tbe Collected Ite m Managemellt
     functions described in rhis section."



    Functional Area #6 - T ask Management
    Overall Status Summary: Implem entation Complctc1 [gj
     SentIDel FunctlUllnht)                                                                             I   Completc?

     " Olle or the primary ways the FBI conducts its business, whether an in vestigation of a                  N/A
     terrorism case or the setting up of a new Resident Agency, is through the cooperative efforts
     of Bureau personllel. The.u efforts a re coo rdinated and tracked throu g h the u se of Luds
     lind Action ltems._Sen linei will provid e the capa bility for usen to task individ uals a nd
     Groups in t hesc ways, allowing improved visibility, control. and t racki ng of work. Leads arc
     lite formal manner of tasking groups andlor individuals. Leads are a rormal mechan ism to
     trllck accountabi lity to perform certain actions. Action Items are less formal defined tasks 10
     be delivered al some future dale. Inlernallo Sentinel, Leads are associated wit h a Cllse.
     wh ile Action Items arc nol fo rma lly associated with a case,"




    2 The Leads capabilities have been fu lly irnplcmetlted. Action Items were determined to be more appropriatcly
    addressed via the existing Microsoft Outlook email capabilities.




                                                                                                                          
 


                                                        - 28 -

 




    Functional Area #7 -Records Managemcnt (RMl
    Ovcrall Status Summary: Implementation Complete ~
    Sentinel FunctIOnal Area
                                                                                                          I   Complete?

    "The fB I is requ ired under the federal Records Act, specifica lly, 44 U.S.c. § 31 Records                 NIA
    Management by federa l Agencies, to establish a records management progra m, defined as a
    pla nned, coordinated sel of policies, procedures, a nd act ivit ies needed to manage an
    agency's recorded information . Governing guidance includes C ha pter 36 orthe Code of
    Federa l Regula tions, i.e. , 36 C FR 1194 Electronic and Infornllition Technology Accessibility
    Standards a nd 36 CFR 1234 Ma nagement of Elect ronic Records. OMD C ircular A-130,
    Ma nagement of f ederal Information Resources, and 36 CrR 1222.20 require th at agencies
    integrate records ma nagement into their overall Inform ation Resou rces Managemcn t
    program."

    "This section describes records management requirements for judicious preservation a nd                      181
    disposal of records in accordance with 44 U.S.c. § 29 Reco rds Ma nageme nt by the Arc hivist
    or the United Sta tes a nd the Ad minis tra tor of General Se rvices, 44 U.S.c. § 33 Disposa l of
    Records, and guida nce a nd im ple mentin g regu lations promulgated by the National Archives
    a nd Records Ad minist ration (NA RA), specifically, 44 U.S.C. § 21 National Archives and
    Records Administratio n, 2000. Other pertinent referen ces from the federal Records Act for
    this section include 44 U.S.c. § 31 Records Management by Federa l Agencies and 44 U.S.c.
    § JS Governmen t Paperwork Elimination Act (Coordin ation of federal Information I'oliey).
    Records Management req uirements found in the documents listed in Section 2 must be
    included in Sentinel, even if they are not specifically repealed in the SRS."

    "These requirements are based 011 DoD Stll ndard 5015.2, Design C riteria ror Electronic                     I:8l
    Records Management Applications, which hilS been e ndorsed by NARA a nd t he fDl's
    Record Management Division. Records Management Capability wi ll be included as pari of
    Sentinel rrom its initia l Phase rollout through irs fin al Phase or developlnent."

    "Scntinel will undergo Electronic Record Keepin g Certification as each Phase is rolled out"                 181
    "The graphical depiction or records ma nagement functionality in this document is notional                   NIA
    and should not be considered 10 represent how records management should be architected
    in the Sent inel deSign. Genera ll}' speaking, records management in the SRS is used only CO
    identiry a specific re pository in which records will be maintained according to 000 50 15.2
    specifications. Th is does not imply thai records ma nagem ent requirements or runct ionali ty
    are limited 10 th a t specific repos itory! '

    "T he SRS identifies various Dusiness Constructs as records that mu st be fil ed in t he Official            181
    Case File. Howe\'er, other Uusiness Const ructs (e.g., a udit logs) as described in Ex.hibit
    3. 1.1 -4 meet Ihe defi nition or federal records and must be managed as such. Sentinel must
    provide the ability to do so as part of the system."

    "A complete list of such records w ill be developed durin g design."                                         181
    "U nless oth erwise spec ificd , Documents a nd ot her Dusiness Constructs created as parI of the            181
    Case File development process must be ma naged from th eir c reation onwards."

    " Exhibit 3.1. 1-4 in Section 3. 1.3 identifies Dusiness Constructs that will be adm in iste red by          181
    t he s}'stem as part offhe Official Case File."

    " At a minimum , the RM function is required to man age those records that com prise th e                    I:8l
    Official Case file ."




                                                                                                                           
 

                                                        - 29 -

 Sentmel FunctIOnal Area                                                                               I   Complete?

 "Other recor ds cont:lined in Scn linel may be mailil ained by th e RM function or th rough
 procedures usin g Ol her Scn tincl fun ctionality."

 "This determination will be mad!' during design."



Functional Area #8 - Search
Overall Status Summa ry: Implementation Complete l:8J
 Sent mel FunctIOnal Area
                                                                                                       I   Complete?

" The Sea rch fun ction will provide a versatile ca pability   10   locatc different types   IIr              IZl
information contained within Sentinel."

" It will support the preparalion and uecution of a multitude of differenl scarch q ueries."                  IZl
" This capability will be both fl exible and powerful to acco mmodate t he s ubstantia l \'olum e             IZl
and wide variety ofi nformalion a\'ailable for relrieval in Sentin el."

"T he Sea rch function will also offer multiple ways in which the resu llS of queries and                     IZl
sea rches can be examined, formattcd , saved, and passed on to other users and ex terna l
entities."

" Search results will be :lvllilable as sets of result entities (with hyperlinks to the larget Work           IZl
Items) and as files with th e results presented in plain tUI."

"T he Search fUII Clioli will allow the user 10 perform searches either illllilediatdy ill real-time          IZl
or on a delayed basis ill II batch mode. *** ..

"The system will prol'ide a personal Search Workbox, in which each user will be a ble 10                      IZl
store all sea rch- related fil es. incl uding sets of search query parameters Chal ca n be saved,
edited, a nd reused . All search results gencrated by the system will be slorcd for the user in
this Sea rch Workbox."

"The system will support the submission of sea rch resulls. ill whole or in part. to the                      IZl
Document Appro"111 and Se rialization process!'

" In associa tion with the Searth function , Sentinel willl'rovide an Information " rofil e                   IZl
Ser Vice, which will inform system users when new informatio n is added to Se ntinel that is
releva nt to Iheir particular interes(s._Section 3.2.8. 14 describes the Informalioll Profile
Ser vice."




                                                                                                                        



                                                   - 30 -

    Functional Area #9 - Indexing
    Overall Status Summary: Implementatiun Complete [gJ
     Sent mel functional Arcll
                                                                                                            I   Complete?

    "In the Indexing function , the system will collect and maintain investigative and                             ~
    administrative information about Persons, Organizlltions, Locations, Incidents, Properly,
    and Communication Accounts (POLl.PCA}.'"

    ;'This capability for centralized storage and sharing or structured information has II long                   N/A
    history within the fDI, dating back to the days when this type of data was stored on paper
    index cards (hence, the usc of tbe term " indexing"), In recent years, the ACS system has
    been providing a similar capability through its Universal Index functiona lity,"

    "This section addresses the fUllctionality related to the colleclion and maintenance of the                   N/A
    POLIPCA information, which is known as "Index" data. An essential associated capability
    is thaI of sellrching this Index information, which Is described in Section 3.2.8, Search,"

    "Oocument Index data {see Section 3.2.9.1)."                                                                   ~
    " Case Index data (see Section 3.2.9.2)."                                                                      ~
    "'A scI ofOocument Index data is associated with each individual Serialized Document ililhe                    ~
    systcm."

    " A set of Case Index data is associated with each Casl.' in the system ."                                     ~
    " from the users' pl.'tspectivt, it is only thc Case Index objl.'cls that are important. !locument            N/A
    Indices exist purely to facilitate the creation of Case Indices. System design may use two
    .'Ids of IIIdadllhl n :poliilorieli or a singh;: imk.\ dala nqJUsitory with approprilllt: Ktlribulcll
    and pointers."

    "The data contained in either a !locument Inde. or a Case Index will consist ofa                               ~
    sequentially numbered scI of Obj ects, with each Object being one of the following types:
             Persons·
    "The data contained in either a Document Index or a Case Index will consist of II                              ~
    sequl.'ntially numbered sci of Objects, with each Object being one of the following types:

         ·   Organizations"

    "The data contained in either a Document Index or a Case Index will consist of a                               ~
    sequentially numbered scI ofObjel.'ts, with each Object being one of the following types:

         ·   Locations"

    "The data containl.'d in eithe r a Documcnt Index or a Case Index will consist of a                            ~
    sequentially numbered sct of Objects, with each Objcct being one of the followin g types:

         ·   Incidents"

    " The data contained In either a Document Index or a Case Index will consist of a                              ~
    sequentially numbered set of Objects, with each Object being one of tile followin g types :

         ·   Propcrty"




                                                                                                                             
 


                                                       - 31 -

 




     Sentinel Functional Area
                                                                                                          I   Complete?

    "T he datu contained in either a Document Ind ex or a Case Ind ex will consist of a                          181
    sequentially nu mbered set of Objects, with each Object being one of the following types:
         .    Co mmunica tion Accounts"

     " For e3ch of these Object types, a fixed set of possible data fields will be allowed in the                181
     Objec!."

    "Each individua l Object in an Index wi ll consist ofa subset of these possib le fi elds of data             181
    \'alues. as a ppmpriate 10 the information that is known about che speci fi c entity being
    described,"

     "The specific data fi elds to be available in the various types of Objects will be identified in            181
     the Sentin el Da ta Model. Ex hibit 3.2,9·1 illustrates the concept of a n Index consistin g or
     Ind ex Objects that contain fields of data va lu es."

    "The Document a nd Case Indices will also support the establish ment or relationships                        181
    between t he objects within each index:'

    "This will allow, for instance, th e ability to record that a Person Object was observed to be               181
    " aI" a parlicular Location Object. The possible relationships between Objects will be
    limited to a finit e set of system-defi ned values th at are to be id entified in the Sentinel Data
    Model.. Ex hibit 3.2.9-1 includes an illustration of the concept ofa relatio nsh ip between two
    lndex Obj ects."



    Functional Area #10 - User Interface
    Overa ll S tatu s Summary: Implementation C omplete                  [gI
    Sentmel f. unctionsl Area                                                                                 Complete'!
                                                                                                          I
    "This section contains the system requirements related to the G ra phica l User Interrace                    181
    (GUI) t hat Sentinel will provide to its users,"

     " It is expected that the design of t he User Inte rface (U I) will incorpora te the expertise of           181
    experienced website layou t deSigners, including Human Factors Engineers, to c rea te design
    standards for use within the Sen tinel application . Note: Sample screens in this section a re
    provided to better illustra te user concepts a nd do not constitute design consid erations or
    constraints,"

    " The user interface, which presents to a nd collects Information from the use rs, does 11 01                NIA
    need to ~tr i c tly adhere to orga niza tion, formatting a nd la beling of sumple screens presented
    in this or ot her sections of t his docum ent. For insta nce, the concept of Packages will be
    pre~ented to the user simply as draft Documents with their associa ted Work Items. The
    worknow engine routes items to be worked into a theoretical wo rkbox, However, the end
    use r uses already existing Case information when processing those items. User interface
    presentations need 10 be oriented around Use Cases ra ther th an simply ite ms th a t ha \'e
    progressed through work·Oow. T he refore, the concept of Workboxes lII ay be presented as
    inform ation organized into la bs, portlets, or ot her visual cues."

    " Users will navigate 10 specific Work Item or Business Constructs for both analysis and                      181
    aetiun ,"




                                                                                                                            
 

                                                         - 32 -

    Sent mel Fnnl'tlOnal Area                                                                          Complete?

    "'Tbc Sentinel system will provide multiple mechanisms to navigate to any given Work Item             121
    or Business Construct."

    " I.n add ilion. these mechanis ms or GUI widgets need to be arranged such that a user can            121
    nayigale to the desired Work Item in a minimum number or keystrokes."

    "The alllount or information and runctions within Sentinel require a rich UI."                        121
    "'The UI will pro\'ide consistent methodologies to navigate within the S}'lltem, along with           121
    clear and concise information 011 where the uscr is within t.he site map."

    "The UI will make extensh'c use ofsingle-inheritance hierarchical inrormation (e.g.,                  121
    organizational structure, Case Classification taxonomy. Cases, Views, and Leads)."

    "Thc tree structure will allow the user to quickly navigate to a node within the hierarch y."         121
    " Hierarchical Nesting - Human factor studies haye shown thai uscrs prefer menus that                 121
    support nYe 10 seven choices. F'urthermore, within hierarchicalmcnus, users prefer fewer
    menus that are dense over more menus that are sparse."

    " Hyperlinked Business Constructs- The display of an abbreYialed representation of II                 121
    Business Construct (e.g. CilSC, Serial, Lead , Collected Item, :lnd Notification) should includc
    the use of II hyperlink allowing the user to naviga te directl}' to the presentation of the
    Business Construct. An indication will be proyided on the user interrace ror items that lire
    hyperlinked ."

    "' Direct Access- Users ",ill rrequently know the unique identifier presented with a Business         121
    Construct (e,g.. Case number. Seria l number within a Case, Lead number within a Case.
    and Collected Item number within 3 Case). Therefore, the UI will allow users to navigate
    di.rectly 10 11 Business Construct by specifying that unique idcntifier."

    "Since the Sentinel system is web enabled, user access to the system will be via a browser            121
    window on a client! '

    "Users of the Sentinel system will need to navigate to and use dirrerent data and                     121
    functionality or the system simultaneously."

    "The system will allow a user to open multiple Sentinel windows and to cut and pastc                  121
    information between them ."

    "These browser windows will support the following concepts:                                           121
    Minimize lind maximize"

    "These browser windows will support the following concepts:                                           121
    Resize ha ndles"

    "These browser windows will support the rollowing concepts:                                           121
    Copy 1Ind p1lste"




                                                                                                                    
 


                                                      - 33 -

 




    Functional Area # 11 - Reports
    Overall Status Summary: Implementation Co mplete [g]
    Sentinel "'unchonal Area                                                                             I   Completc'!

    "A report is the output resulting from one of;d set of defin ed inquiries of the Sentine l system,          [8l
    e;dch designed to produ ce a spe('ific set of information form a tted in acco rd a nce wilh both
    fBI policy and user needs, A report request may either allow or require the user to ente r
    crite ria for ordering a nd/or fillering the co nle nt that is to be included in th e report. This
    section contains a description of the reporting capabilities nceded for Sentin el, In cluded are
    the report categories, each with a list of specific reports to be produced, where such lisls are
    applicable, Each report is described wilh requiremcnts a nd report form a ts in the Se ntinel
    Reports Specification."



    Functional Area #12 - Logs
    Overall Status Summary: lmplementation Co mplete                  t8J
    Sentinel functIOnal Area                                                                                 Complete'?

    "The Sentinel system will record informaCion su ch as changes of state for Busin ess
    Co nstructs or for fi elds within the Business Constructs."

    "These records of changes are described as logs, histories, and/or version-a ble documents.
    Records of cbanges lire kepi for two distinct purposes. Data is kept for the System or
    Security Administrators to perform foren sic ;dnalysis of the system:'

    " Examp les of this lire system logins or logs ofsea rch criteria and results. Dala is also ke pt
    for the users 10 be able to display the history of 11 given Business Co nstrucl, da ta element, or
    delegation."

    " Examples of this are Lead histo ries or lists of Case Owners o\'er time. T hese two categories            Nf A
    are refer red to as security audit data and historical data, respectively."




                                                                                                                           
 

                                                      - 34 -

Functional Area #13 . Administration



 "Fo r the Sentinel system to continue to opera te effect ively a nd efficiently a fter in itia l                   N/A
 config uration, a signifi ca nt a mount of ma intena nce mllst occu r , primarily wit hin th e area of
 o rga niza tiona l hierarchy and how entities are rel:J tcd to taxono my. fun ctio ns, roles, a nd
 geogra phy. T he Senti nel admin istra tive functions will be designed to co ndu ct this a nd oth er
 a pplication ma in tena nce fun ctio ns such as entity ma intena nce, lead routing, lookup ta ble
 ma intenance, b usi ness r ule ta ble ma intenan ce, kcyword watch list ma int'eRa nce, delega tions,
 a nd s)'stem settings:'

 "Sentin el administ ra tion will provide two levels of ma intena ncc a ccess - loca l and                           [gI
 Enter prise."

 " Local a dministra tors williulve the purview to modify d a ta perta ining to th e O ffice in wh ich               181
 they a re primarily assigll ed ."

 " Enterprise ad ministrators will h an~ th e au tho rity to modify d a ta pertain ing to a ll O ffices as           [8]
 well as system setti ngs."

 "T his section discusses r equ ircments tha t are necessary fo r the administ ra tion a nd                         N/A
 mai nt ena nce of the Sentinel system."



Functional Area #14 - Sccuritv
O veral l Status Summ ary: Implementation Complete t8J
 Sentinel F unctlOnsl Area                                                                                        Cumplete?
                                                                                                              I
 "Sentin el will comply with a ll Fed er a l a nd age ncy secu r ity guidelin es a nd requir eme nts t ha t          l8J
 a re a pplica ble to t he developmen t a nd o pera tion of Sc ntin e!.'·

 "These include th e DOJ Ord er 2640.2£.; th e FBI 's Ma nu a l of Investigat ive O pera tions a nd                  l8J
 Guide lines."

 " Sentinel will operate in the Syste m Hig h mode and willllo t stor e or process a ny                              l8J
 information classified higher th a n SEC R ET!'

 " In add ition, Sentinel will suppo rt la beling req uire ments, tra d itiona lly associated with Ihe               l8J
 multi· level security 1Il0d e of ope ra tion, to address the req uirements for Sentinel to in terface
 with systems o f d iffering classificalions via cont rolled interfaces."




) Currently, many administration functions are available to general fie ld support personnel via a uniq ue interface.
These include: adding lead routing rules; managing organization names and locat ions; and assigning personnel to
divisions, squads, etc. Business rules and keyword watc.:h lists cUITently must be maintained via system
adm inistrators and or development resources.




                                                                                                                               



                                                       - 35 -

    Functional Area #15 -Resen'ed Section
    Overa ll Status Summary: Implementation Complete                     C8'J
    Note: The requ irement s from thi s section regarding Cri sis Case Management were remo ved via
    ESC request for change process. This capability is cu rrently supported by the ORION system
    with an interface to Sentinel.


    Functional Area #16 - En terprise Portal
    Overa ll Statu s S ummary : Implementation Com plete.4                C8'J
     Sentmel FunctIOnal AreD
                                                                                                          I   Complete"

     " This section co ntains the system requirements related to the enterprise porl:tI that Sentinel            iZI
     will incorporate in its design."

     "Users will be able to customize the portal (e.g., hide or display aoy portlet to wh ich th ey              iZI
     ha \'e access), "

     "T he Sent in el portal will evolve 10 allow FB I Intranel (FB INet) users to search and access             iZI
     other Bureau information and applications, e,'entually beco ming the Sentinel Enter prise
     Porta l (SE P),"

     "The SEP will provide a variety of information, tools, a('pl ications and access poin ts                    iZI
     through a single mechanism."

     "The refo re, it must have the ability to host portlets both native and non-native 10 Ihe                   iZI
     Spnlinel application ."

     " The goal is to e\'olve all FBI applications to utili'le the Sentincllook and feci as well. T his          iZI
     will a lso faci lita te a consistent security model a nd Single Sign-O n capability to Bit F81Nei
     applications."

     "This long term vision will be implemented over ti me. Sentinel will produce an inltilll portal             C!'J
     and implement the long term vision over time usin g engin eering trade-offs as appr()priate."

     " A govern1l. nce process 10 include sta ndards will need to be developed and execuled."                    iZI


    VIII. Conclusion
    The FBI deployed Sentinel's tinal operating capabilities May 201 2 and wil l continue deployment
    to all FBI users during the summer 0[201 2. In partnership with 001 and OMB, Sentinel's effort
    from the fa ll of 20 10 to the summ er of 20 12 has resuhed in the creation of the fun ctionali ty that
    meets the needs of the organization. This important technological enhance ment in case and



    ~ The concept of an emerprise pollal was an adaplation added as a part of Phase 2 planning. Enterprise Portal is a
    technology-based approach to address user-facing GU I capabilities. II was added 10 support the ph.ased
    development and delivery approach. WitHe success full y implemented during Phase 2. lhe long lenn GU I has been
    upgraded using the EXTJS framework allowing for significantly more flexibil ity. and reduced integration eflorts.
    The implementation of this long lerm vision has resu lted in an improved user experience.




                                                                                                                           
 


                                                         - 36 -

    records management prov ides a significant and vi tal tool in the FBI ' s ongoing infonnation
    technology moderni zation.
    The new Sentinel system will provide FBI employees with a modern web·based application that
    will improve investigative case managem en t functions and provide faster worknow routing,
    secure digital signature and the administration of electronic record s. The new functionality is a
    major seep in the right direction of reducing the administrati ve burden of our wo rkforce, creating
    more tlexible and adaptive organization structures, and helping the FBI defend against the types
    of threats we face as a nation.




                                                                                                            
 


                                                - 37 -

                                                            APPENDIX II


         PRIOR OFFICE OF THE INSPECTOR GENERAL
                   SENTINEL REPORTS



  REPORT DATE       REPORT NUMBER                REPORT TITLE
February 1, 2005        05-07        The Federal Bureau of Investigation’s
                                     Management of the Trilogy Information
                                     Modernization Project
December 1, 2006        07-03        Sentinel Audit II: Status of the Federal
                                     Bureau of Investigation’s Case
                                     Management System
August 28, 2007         07-40        Sentinel Audit III: Status of the
                                     Federal Bureau of Investigation’s Case
                                     Management System
December 18, 2008       09-05        Sentinel Audit IV: Status of the
                                     Federal Bureau of Investigation’s Case
                                     Management System
November 9, 2009        10-03        Sentinel Audit V: Status of the Federal
                                     Bureau of Investigation’s Case
                                     Management System
March 30, 2010          10-22        Status of the Federal Bureau of
                                     Investigation’s Implementation of the
                                     Sentinel Project
October 19, 2010        11-01        Status of the Federal Bureau of
                                     Investigation’s Implementation of the
                                     Sentinel Project
December 22, 2011       12-08        Status of the Federal Bureau of
                                     Investigation’s Implementation of the
                                     Sentinel Project




                                - 38 -

                                                                          APPENDIX III



             DESCRIPTION OF THE FBI’S AGILE DEVELOPMENT
                 APPROACH FOR DEVELOPING SENTINEL


       Agile software development is not a set of tools or a single
methodology, but an approach that leverages close collaboration between
representatives of system users, system developers, and testers to deliver
functionality in a compressed timeframe and on a continuous basis. The
delivery of working software is the primary measure of progress, and
satisfying customers through the delivery of valuable software is treated as
the highest priority during development.

      While an Agile methodology can be implemented in a variety of ways,
the FBI used a variation called Scrum, an iterative methodology which
breaks the development effort into increments called sprints, each of which
the FBI decided would last 2 weeks.23 At the conclusion of each sprint, User
Stories – functions that a system user would typically perform – along with
Architecture Stories – qualities that define the system software architecture
and configuration – are planned and completed, and it is the successful
completion of these stories that is measured as progress for the project.24




                                                       
             23
          Sprints can last from 2 weeks to 4 weeks. The FBI has chosen for its sprints to
last 2 weeks.
             24
           User Stories define functions that a system user would typically perform such as
opening and closing a case or completing a form. Architecture Stories identify the hardware
that the FBI will use to build Sentinel. These stories also describe the way in which the FBI
will configure that hardware.


                                                          - 39 -

                                                                                                               APPENDIX IV


                  FEDERAL BUREAU OF INVESTIGATION 

                    RESPONSE TO THE DRAFT REPORT 


                                                                     U.S. Department of Justice


                                                                    Federal Bureau of Investigation


                                                                    Wa5tllllgton. D. C. 20535-0001


                                                                     September 5, 2012


The Honorable Michael E. Horowitz
[nspeetor Genera[
Oftice of the Inspector Genera[
U.S. Department of Justice
950 Pennsylvania Avenue, Northwest
Washington, D.C. 20530


Dear Mr. Horowitz:


                   The Federa[ Bureau of Investigation (FBI) appreciates the opportunity to review
and respond to your office's report entitled, Interim Report on the Federal Bureau                           (~l
Investigation's Implementation althe Sentinel Project ("Report").

                The FBI successfully deployed its next generation information and case
managemcnt system, Sentinel, on July 1,2012, As noted in the Report, since deployment, "FBI
employees routinely have been using Sentinel to perform their daily electronic workflow and
investigative activities." With Sentinel, the FBI moved from a paper-based case management
system to a digital system ofrecord. Sentinel uses a modem web-based application for entry,
review, approval, and research of case intelligence information.

                Sentinel is helping the FBI to work smarter and more efticiently. Sentinel
significantly advances our Information Techno[ogy and our intelligence information sharing
process. Sentinel's capabilities have already improved FBI's operations by enabling agents and
analysts to disseminate critical case information more quickly_

                We are grateful for your oftice's recognition that, "[tlhe FB[ reduced its
development costs by using an Agi[e development approach, significantly reducing the rate at
which it expended funds on Sentinel development:' As noted in the Rcport, upon adopting an
Agile approach, FBI ofticia[s expected the revised process would allow the FB[ to complete
Sentinel development within the $45 [ million budget. As the FBI reported to Congress this past
Ju[y, the Sentinel team de[ivcredjust that, coming in several million dollars below the budget.

                [n the Report, your office noted that the FB['s statement of the total Sentinel
project cost does not include post-deployment operations and maintenance expenses ("O&M").
The original fi ve-year contract envisioned deployment in year three and two years of post­
deployment O&M. However. the contract was modified during the course of development to
eliminate the post-deployment provision, and. instead, to require a total of five years O&M.'
After deploying Phase [ of Sentinel in 2007, the FBI commenced O&M to operate and maintain

1 Originally. O&M was referred to as pre and post-final operating capability ("FOC"). Modilicalion 40, dated July 27. 20J().
dctaih:d the change to the contract from 2 years post-FOe to option years 3 and 4.




                                                              - 40 -

 

    the system as further development continued. The FBI has since fully received five years of
    O&M within the $451 million budget. In addition, given the use of Agile development and the
    successful in-house deployment and adoption of Sentinel, the FBI is where we envisioned being
    at the conclusion of the original five-year contract.

                  In conclusion, the FBI appreciates the professionalism exhibited by your staff as
    they worked to complete this review on an expedited basis.



                                                        Sincerely YOu~               <
                                               ,. tZ ~. Kevin L. Perkins
                                                                                         ";
                                                        Associate Deputy Director




                                                   2




                                                       - 41 -

                                                                   APPENDIX V 



     OFFICE OF THE INSPECTOR GENERAL ANALYSIS OF 

        THE FEDERAL BUREAU OF INVESTIGATION’S

                RESPONSE TO THE REPORT



      The OIG provided a draft of this report to the Department of Justice,
including the Federal Bureau of Investigation (FBI). The FBI provided a
response to the draft report, which is incorporated as Appendix IV of this
report. The following provides the OIG analysis of the response.

       In its response to our report, the FBI stated that while it had originally
planned to fund 2 years of post-deployment operations and maintenance
activities using its $451 million project budget, the FBI eliminated that
provision in July 2010. According to the FBI, it planned and paid for 5 years
of operations and maintenance activities regardless of the date of
deployment. In its response the FBI stated that it had received fully those
5 years of operations and maintenance within its $451 million budget. The
FBI stated in its response that the FBI is where the FBI envisioned being at
the conclusion of the original 5-year contract.

       We agree with the FBI that its initial plan and budget for implementing
Sentinel included 2 years of post-deployment operations and maintenance
activities. We also agree that the FBI incurred costs to maintain the
completed portions of Sentinel that it implemented with limited functionality
prior to deploying a fully functional version of Sentinel on July 1, 2012.
 
       However, because the remaining funds of the FBI’s Sentinel budget
are not sufficient to cover 2 years of post-deployment operations and
maintenance activities, we disagree with the FBI’s assessment that it is
where it envisioned it would be at the conclusion of Sentinel’s development.
The FBI estimates that Sentinel operations and maintenance will cost
$30 million annually.




                                      - 42 -

